Audit of the Use of Presidential Library Facilities
            by Outside Organizations




           OIG Audit Report No. 14-04



                  March 5, 2014

Table of Contents



Executive Summary ........................................................................................ 3



Background ..................................................................................................... 4



Objectives, Scope, Methodology .................................................................... 6



Audit Results ................................................................................................... 7



Appendix A – Acronyms and Abbreviations................................................ 13



Appendix B – Management's Response to the Report.................................. 14



Appendix C – Report Distribution List......................................................... 15



Appendix D – NA Form 16011 .................................................................... 16

                                                                      OIG Audit Report No. 14-04


Executive Summary

NARA’s building-use regulations, 36 CFR 1280.94, outline the permissible and prohibited uses
of Presidential Library facilities by other groups. Additionally, these regulations require outside
organizations to apply for the use of library space by writing to the library director and
submitting an Application for Use of Space in Presidential Libraries, NA Form 16011 (16011).
The objective of this audit was to determine whether Presidential Libraries are adhering to
governing NARA policy and applicable federal laws and regulations in regards to the use of their
facilities by outside organizations. In general, it appeared the Presidential Libraries were
complying with the intent of 36 CFR 1280.94.

36 CFR 1280.94(c) requires groups requesting the use of a Presidential Library area to apply in
writing to the library director using a 16011. However, during our review of the use of library
facilities by outside groups we found that two Presidential Libraries do not require groups to
complete a 16011. The Directors at these libraries stated that they were either unaware of this
requirement or could not offer any explanation why the form was not used. By not requiring a
completed 16011 these Presidential Libraries are not adhering to 36 CFR 1280.94(c). In
addition, the lack of a completed 16011 removes a control that helps to ensure groups do not
improperly use library facilities, and increases the difficulty to review whether groups adhered to
the requirements of 36 CFR 1280.94.

Further, we found instances where 16011’s associated with events were not properly completed.
As stated previously, 36 CFR 1280.94(c) requires groups requesting the use of a Presidential
Library area to apply in writing to the library director using a 16011. Yet staff at one
Presidential Library stated that it is common for people not to fill out 16011 forms completely.
Again, not properly completing the form violates 36 CFR 1280.94(c) and hinders the ability to
review and determine whether the requirements of 36 CFR 1280.94 were followed.

Lastly, two events we reviewed appeared to involve activities of a religious nature. These events
may have violated 36 CFR 1280.94(d)(4) which states use of the auditoriums and other public
places will not be authorized for any sectarian or similar purpose. During our audit we noted that
one control used to ensure compliance with 36 CFR 1280.94 is the completion of a 16011 form.
However, it is not possible to determine conclusively whether these events did or did not involve
religious or sectarian activities based solely upon the description of the events found on the
16011 form. Thus, a lack of appropriate documentation, an important internal control activity,
hindered our ability to ascertain whether or not these events adhered to 36 CFR 1280.94.

Our audit identified opportunities to assist Presidential Libraries in adhering to 36 CFR 1280.94.
We made five recommendations to improve the processes Presidential Libraries follow when
allowing outside groups to use their facilities.




                                              Page 3
                           National Archives and Records Administration
                                                                       OIG Audit Report No. 14-04


Background

In 1940, Franklin D. Roosevelt was the first president to arrange to have a library built using
privately raised funds and to then transfer both the facility and his papers to the federal
government. Today the Presidential Library system is a nationwide network of 13 Presidential
libraries beginning with the 31st President of the United States, Herbert Hoover. These facilities
are overseen by the Office of Presidential Libraries (LP), in the National Archives and Records
Administration (NARA).
                                    Table 1: Presidential Libraries

           Presidential Library                      Location
           Herbert Hoover Library                    West Branch, Iowa
           Franklin D. Roosevelt Library             Hyde Park, New York
           Harry S. Truman Library                   Independence, Missouri
           Dwight D. Eisenhower Library              Abilene, Kansas
           John F. Kennedy Library                   Boston, Massachusetts
           Lyndon B. Johnson Library                 Austin, Texas
           Richard Nixon Library                     Yorba Linda, California
           Gerald R. Ford Library                    Ann Arbor, Michigan (library)
                                                     Grand Rapids, Michigan (museum)
           Jimmy Carter Library                      Atlanta, Georgia
           Ronald Reagan Library                     Simi Valley, California
           George H. W. Bush Library                 College Station, Texas
           William J. Clinton Library                Little Rock, Arkansas
           George W. Bush Library                    Dallas, Texas


Each library is associated with a private foundation, which raised the funds to build the library
and then turned the library facility over to the federal government. These foundations typically
have ongoing relationships with the libraries they built, and some of these library-foundation
relationships involve sharing of staff and facilities. That said, this audit did not review events
coordinated by presidential library foundations and held at presidential library foundation
facilities. Although presidential library foundation facilities are typically located within close
proximity of presidential libraries, events held within these areas were not subject to OIG review.

Each library is operated by a director who is a NARA employee, and other library staff who are
also NARA employees. The staffs typically include an administrative officer, facility manager,
education and exhibits specialists, archivists, archives technicians, and clerks. The director of a
Presidential Library is appointed by the Archivist of the United States, the head of NARA, who
consults with the former president in selecting a candidate.


                                               Page 4
                            National Archives and Records Administration
                                                                       OIG Audit Report No. 14-04


NARA’s building-use regulations, 36 CFR 1280.94, outline the permissible and prohibited uses
of the Presidential Library facilities by other groups. Additionally, the regulations require
outside organizations to apply for the use of library space by writing to the library director and
submitting an Application for Use of Space in Presidential Libraries, NA Form 16011 (16011).
In most cases 16011’s represent the only method of reviewing how outside organizations used
Presidential Libraries. Thus, obtaining and reviewing 16011’s was the primary method we relied
on to ensure that the requirements of 36 CFR 1280.94 were followed.

According to the regulations, other groups may request the use of Presidential Library facilities
when the activity is:

   •   sponsored, cosponsored, or authorized by the library;
   •   conducted to further the library’s interests; and
   •   scheduled so as not to interfere with the normal operation of the library.

Prohibited uses of Presidential Library facilities include:

   •   profit-making;
   •   commercial advertisement or sales;
   •   partisan political activities; or
   •   sectarian activities.

When NARA considers it to be in the public interest, NARA may allow for the occasional,
nonofficial use of rooms and spaces in a presidential library and charge a reasonable fee for such
use.

Also, NARA’s building-use regulations prohibit organizations from charging admission fees,
indirect assessments, or taking any other kind of monetary collection at the event. In addition,
outside organizations can be assessed additional charges by the library director to reimburse the
government for expenses incurred as a result of their use of the library facility. Lastly, according
to 36 CFR 1280.96, library directors may establish appropriate supplemental rules governing use
of Presidential Libraries and adjacent buildings and areas under NARA control.




                                               Page 5
                            National Archives and Records Administration
                                                                     OIG Audit Report No. 14-04


Objectives, Scope, Methodology


The objective of this audit was to determine whether Presidential Libraries are adhering to
governing NARA policy and applicable federal laws and regulations in regards to the use of their
facilities by outside organizations.

In order to accomplish our objective we performed the following:

    Reviewed the NARA Presidential Libraries Manual (NARA 1401) as well as 36 CFR
     1280.94 and 1280.96;

    contacted NARA staff at all 13 Presidential Libraries and discussed outside organizations
     use of Presidential Library facilities;

    performed on-site reviews at the Ford, Kennedy, Reagan, Carter, and Hoover Presidential
     Libraries;

    reviewed and examined approximately 450 NA Form 16011’s; and

    reviewed the charges collected from outside groups by two Presidential Libraries.


Our audit work was performed at Archives II in College Park, Maryland as well as the following
Presidential Libraries: Ford, Kennedy, Reagan, Carter, and Hoover. The audit took place from
June through October of 2013. We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                             Page 6
                          National Archives and Records Administration
                                                                      OIG Audit Report No. 14-04


Audit Results

1. Two Presidential Libraries did not require groups to complete
   16011’s.
36 CFR 1280.94(c) requires groups requesting the use of a Presidential Library area to apply in
writing to the library director using NA Form 16011 (16011). However, during our review of the
use of library facilities by outside groups we found that two Presidential Libraries do not require
groups to complete a 16011. The Directors at these libraries stated that they were either unaware
of this requirement or could not offer any explanation why the form was not used. By not
requiring a completed 16011 these Presidential Libraries are not adhering to 36 CFR 1280.94(c).
In addition, the lack of a completed 16011 removes a control that helps to ensure groups do not
improperly use library facilities, and increases the difficulty to review whether groups adhered to
the requirements of 36 CFR 1280.94.

On June 19, 2013 we requested all 16011’s completed between June 1, 2012 and June 1, 2013
for the 13 Presidential Libraries. The Office of Presidential Libraries (LP) was able to provide
these documents for the majority of the Presidential Libraries. However, after receiving this
request, two Presidential Libraries responded that they do not require groups to complete
16011’s.

On June 25, 2013 staff at the Carter Library stated that while they allow local federal agencies,
archival associations, and education groups to use their facilities they do not use 16011’s.
Furthermore, on August 26, 2013 we performed an on-site review at the Carter Library. While at
the library we asked the Acting Director why the library has not required the use of 16011’s.
The Acting Director stated that he was not aware that use of the form was required.

In addition, on June 25, 2013 the Director of the Reagan Presidential Library provided Event
Information Forms in lieu of 16011’s. According to the Director, a Joint Use Agreement
addendum (between the Reagan Library and the Reagan Foundation) authorized the Reagan
Foundation to act as agent for facility rental purposes. As a result of this agreement, the use of
16011’s was discontinued. During an on-site review of the Reagan Library on August 5-6, 2013
the Director did not offer any explanation as to why the 16011’s were not used by the library but
did state that when the Joint Use Agreement was codified, the Foundation was made aware of
CFR 1280.94.

A properly completed 16011 acts as a control to ensure events held at Presidential Libraries
adhere to 36 CFR 1280.94. In addition, the proper completion of a 16011 is required by 36 CFR
1280.94(c). During fieldwork the Director of the Reagan and the Acting Director of the Carter
Presidential Libraries both stated that if required they would not object to using 16011’s.
Furthermore, the Carter Library began requiring the use of 16011’s before the end of fieldwork.


                                              Page 7
                           National Archives and Records Administration
                                                                       OIG Audit Report No. 14-04


Recommendation

1.	 We recommend all Presidential Libraries require the proper completion of a 16011 when a
    group uses a library facility for an event.

Management Response

Management concurred with this recommendation.


2. Deficiencies identified with 16011’s.
During our review of the use of library facilities by outside groups we found instances where
16011’s associated with events were not properly completed. 36 CFR 1280.94(c) requires
groups requesting the use of a Presidential Library area to apply in writing to the library director
using a 16011. One Presidential Library stated that it is common for people not to fill out 16011
forms completely. Not properly completing the form violates 36 CFR 1280.94(c) and hinders
the ability to review and determine whether the requirements of 36 CFR 1280.94 were followed.

As stated previously, on June 19, 2013 we requested all 16011’s for the 13 Presidential Libraries
completed between June 1, 2012 and June 1, 2013. The resulting production from this request
contained approximately 450 16011’s. We reviewed 100% of the 16011’s received. After
reviewing the forms, we identified the following problematic areas.


Lack of detail on 16011’s

Line item four on page four of each 16011 requires a description of proposed activity. This
description is important because the first page of every 16011 states use of the auditoriums and
other public spaces will not be authorized for any profit-making, commercial advertising and
sales, partisan political, sectarian, or similar purpose.

However, 15 of the 16011’s we reviewed lacked sufficient detail within line item four to
determine what type of event was held. For example, some of the descriptions provided
included: “meeting”, “panel discussion”, “reception”, “workshop”, and “banquet”. The lack of
sufficient detail included within line item four hindered our ability to determine whether events
held at Presidential Libraries were in compliance with 36 CFR 1280.94.


16011’s not signed

Page four of each 16011 requires the form to be signed by both the applicant requesting use of a
Presidential Library as well as a NARA representative. In addition, page three of each 16011
needs to be signed by the applicant and the Library Director or Deputy Director if a group plans
to serve alcohol at an event.
                                               Page 8
                            National Archives and Records Administration
                                                                        OIG Audit Report No. 14-04



During our review we identified 54 16011’s that were not signed by a NARA representative.
The majority of these forms were from the Truman Library. According to the Truman Library’s
Program Management Officer, the library’s Special Events Coordinator does not return a copy of
each 16011 to the group renting the space, so this individual has not been signing the forms kept
in their files.

On August 12, 2013, OIG staff performed an on-site visit at the Kennedy Presidential Library.
During this on-site visit OIG staff inquired about three unsigned 16011 forms that Kennedy
Library staff originally provided to us. In response, Kennedy Library staff provided us with
three modified 16011 forms that were signed and backdated. When asked why we were
originally provided with forms that were not signed, Kennedy Library staff stated that before we
arrived for our on-site visit they had cleaned up their 16011’s. During this clean-up the forms
that were not signed were given to the Assistant Director to sign and backdate. These signed
forms were then provided to us.

Indeed, a similar issue occurred at the Johnson Presidential Library. In this case, we originally
identified eight unsigned 16011’s. When asked about these unsigned forms, Johnson Library
staff provided us with three of the forms that had been signed and backdated. When asked about
this discrepancy, Johnson Library staff stated that they were not aware that 16011’s were to be
signed before events. Further, they stated that they have corrected their error and in the future all
16011’s will be signed before the event.

It is important to memorialize the approval of a properly completed and submitted 16011 by
ensuring the form is properly signed and dated in the designated area by an eligible NARA
representative. Furthermore, NARA staff should refrain from altering original documents in any
way after they are requested during the course of an audit. This includes signing or dating
documents after the fact.


Sections of 16011’s not completed

As seen in Appendix D page four, each 16011 contains eight separate sections within Part I of
the application. The instructions for the form (Appendix D page four) state that all items need to
be completed. However, we identified 50 16011’s containing sections that were not completed.
The sections not completed included section four, description of proposed activity, section six,
proposed area to be used at the library, and section eight, approximate number of attendees.

The proper completion of 16011’s helps us in identifying the details of events held at
Presidential Libraries which in turn assists in our determination as to whether or not these events
adhered to the requirements of 36 CFR 1280.94.




                                               Page 9
                            National Archives and Records Administration
                                                                      OIG Audit Report No. 14-04


16011’s not provided for events

We requested all 16011 forms for the 13 Presidential Libraries completed between June 1, 2012
and June 1, 2013. LP provided approximately 450 forms that we then reviewed. We also
requested and reviewed a calendar of events form from each Presidential Library. These
calendar of events forms enabled us to review all events held during the review period. For each
library, we verified that a 16011 was completed for each event found on the calendar of events
form which required a 16011 per 36 CFR 1280.94. However, for four events LP was unable to
provide the corresponding 16011. One of these four forms could not be located by the
responsible library. Another library did not have a 16011 for the event in question. Finally, one
library stated that the two events in question were held outside; therefore no federal facilities
were used. However, 36 CFR 1280.94(a) encompasses not only events held within Presidential
Library buildings, but also events held on the grounds of Presidential Libraries.

Additionally, we noted that the majority of the Presidential Libraries that have a related
foundation do not require the foundation to complete a 16011 when the foundation holds an
event in NARA space within a Presidential Library. However, the Nixon Presidential Library
does require its foundation to complete a 16011 for all of their events because the groups at these
events often require access to the museum, and this is a way for the Nixon Library to ensure that
the Nixon Foundation abides by the policies and procedures protecting NARA space and
holdings. We recommend that all libraries follow this practice of requiring all organizations,
including foundations, to complete a 16011 when they hold an event in NARA space within a
Presidential Library.


Recommendations

2.	 We recommend all Presidential Libraries require the proper completion of a 16011 that
    includes sufficient detail of events when groups or foundations use NARA library facilities
    for events.

3.	 We recommend all Presidential Libraries memorialize the approval of a properly completed
    and submitted 16011 by ensuring the form is properly signed and dated in the designated area
    by an eligible NARA representative.

Management Response

Management concurred with these recommendations.


3. Potential occurrence of non-allowable events.
Two events we reviewed appeared to involve activities of a religious nature. These events may
have violated 36 CFR 1280.94(d)(4) which states use of the auditoriums and other public places


                                              Page 10
                           National Archives and Records Administration
                                                                                     OIG Audit Report No. 14-04


will not be authorized for any sectarian 1 or similar purpose. During our audit we noted that one
control used to ensure compliance with 36 CFR 1280.94 is the completion of a 16011 form.
However, it is not possible to determine conclusively whether these events did or did not involve
religious or sectarian activities based solely upon the description of the events found on the
16011 form. Thus, a lack of appropriate documentation, an important internal control activity,
hindered our ability to ascertain whether or not these events adhered to 36 CFR 1280.94.

On March 10, 2013 the American Jewish Committee held an “AJC Diplomats Seder” at the
Kennedy Presidential Library. When we asked staff at the Kennedy Library for more
information regarding this event they provided a letter of intent and stated the event was a
Passover Seder marking the Israelite exodus from slavery in ancient Egypt. The event was also
an occasion to celebrate the universal human quest for freedom with leaders of Boston’s
religious, ethnic, academic, political, and human rights communities.

In addition, on November 8, 2012 and May 16, 2013 Traditions Hospice held two separate
“Hospice Memorial Services” at the George H.W. Bush Presidential Library. In response to our
inquiries regarding this event staff at the Bush Library stated this event included a memorial
prayer, inspirational music and a candlelight vigil, but was not associated with any particular
religion.

We asked staff at the Kennedy Library whether or not the event in question was a religious event
or if any events held at the library included sectarian activities. Kennedy Library staff responded
that no religious or sectarian events occurred during our review period. In addition, Bush
Library staff stated that if a proposed event does not qualify under 36 CFR 1280.94, they are
directed to other facilities around town. Finally, both libraries responded that at least one NARA
staff member is present for all events held at both of these Presidential Libraries.

Along with asking Presidential Libraries staff about these events we also consulted staff within
NARA’s Office of General Counsel (NGC). NGC staff responded that without additional detail
they could not state whether or not these events violated any aspect of 36 CFR 1280.94.

In order to incorporate a more robust system of internal controls, we recommend that LP work
with NGC to institute an annual, mandatory NGC review of a sample of 16011 forms submitted
by Presidential Libraries. Completing a 16011 is required by 36 CFR 1280.94(c) and helps us
understand the type of event being held. Additionally, adding this monitoring activity will
bolster LP’s internal control system and can help NGC gain a current view of the types of events
being held at Presidential Libraries. This would supplement the legal advice NGC currently
provides the libraries when they contact them regarding issues they experience with events that
may not be in compliance with 36 CFR 1280.94.

Lastly, we found that some Presidential Libraries maintain guidelines for renting space in
Presidential Libraries. In particular, the Ford Library maintains a rental checklist it uses to



1
    Sectarian means that which has the purpose or function of advancing or propagating a religious belief.
                                                      Page 11
                                   National Archives and Records Administration
                                                                       OIG Audit Report No. 14-04


ensure the eligibility of both the requestor and the event type. This form of control activity can
help to ensure libraries are adhering to the requirements of 36 CFR 1280.94.


Recommendations

4.	 We recommend LP work with NGC to institute an NGC review program of a sample of
    16011 forms from all Presidential Libraries to ensure that the forms meet the requirements of
    36 CFR 1280.94.

5.	 We recommend all Presidential Libraries create and maintain rental guidelines that help to
    ensure compliance with 36 CFR 1280.94.


Management Response

Management concurred with these recommendations.




                                               Page 12
                            National Archives and Records Administration
                                                               OIG Audit Report No. 14-04


Appendix A – Acronyms and Abbreviations


AJC     American Jewish Committee

CFR     Code of Federal Regulations

LP      Office of Presidential Libraries

NARA    National Archives and Records Administration

NGC     Office of General Counsel

OIG     Office of the Inspector General

OMB     Office of Management and Budget

USC     United States Code




                                       Page 13
                    National Archives and Records Administration
                                                                                              OIG Audit Report No. 14-04



Appendix B – Management’s Response to the Report





               Date:                         FEB U 2DI4
               To:                         James Springs, Acting I nspeaor Generol
               From:                       DavidS. Ferriero, Archivist of the United Slates
               Subject:     OIG Draft Audit 14-04, Audit of the Usc of Presidential Ubrary Facilities by
               Out:>ide Organizations




     Thank you for the opportunity to provide commenllS on this clroft report. We appreciate
     your willingness to meet and clarify language in the report.

     We ooncur with the five recommendations in this audit, and we will address them further
     in our action pian.



    cu  A ~I
     DAVIDS.;~
                                                    ---,

     Archivist ct the Ul\ib!d States




              -!•oO•: \o   Ol • ;•.•IJ •• ';, .~
     ·. '.!          ··•.i• ' "· . ·:.,: ., ·~·,;




                                                                      Page 14 

                                                   National Archives and Records Administration
                                                                      OIG Audit Report No. 14-04


Appendix C – Report Distribution List

Archivist of the United States (N)


Deputy Archivist (ND)


Chief Operating Officer (C)


Performance and Accountability (CP)


Legislative Archives, Presidential Libraries, and Museum Services (L)


Office of General Counsel (NGC)





                                              Page 15
                           National Archives and Records Administration
                                                                                              OIG Audit Report No. 14-04


Appendix D – NA Form 16011


                                                                                                  OMS Conlrol No. 3095-0024
                                                                                                   Expiration date: 04130/2014



       APPLICATION Al'IID PERMIT FOR USE OF SPACE IN PRESIDENTIAL LIBRARIES AND GROUNDS

                                                           CONDITIONS OF USE

      LIBRARY PROVISIONS: TI1e library director or deputy director may assess additional charges to
      reimburse the Govemment for expenses incurred as a result of the use by groups of library facilities.
      Each library: ( 1) sets its own schedule for size of donation and its own timetable for reservations,
      payments, and refunds; (2) decides what times are ava ilable for outside events; and (3) detem1ines the
      number of people allowed for various outside events. ln addition to the conditions listed here, which
      apply to all Presidential libraries, each library may impose conditions that apply to only that library.

      PROHIBIT IO        ·s:
                          Use of the auditoriums and other public spaces wi ll not be authorized for any
      profitmaking, commercial adve11ising and sales, partis;m political, sectarian, or similar purpose. No
      admission fee will be charged except by the li brary, no indirect assessment fees will be made for
      admission, and no collections will be taken. Organizations are prohibited from representing, implying, or
      suggesting in their invitations, publicity, or oth erwise that the library endorses, sponsors, or in any way
      approves of the organization. Smoking is prohibited inside all NARA facilities, including library
      buildings; smoking outside is pem1itted only in certain designated areas.

      PRE-APPROVAL REQUIRED: TI1e following must be approved in advance by the library: ( 1) media
      coverage; (2) speakers, perfom1ers, movies, or programs (other than those included in the library
      program); (3) decorations that are fastened to ru1y pa1t of the building by ru1y means; and (4) the serving
      of alcoholic beverages. Sponsoring organizations and their designated contractors must review their plru1s
      with library staff; and the plru1s must confonn to library mles and procedures and to pertinent fire, safety,
      and security regulations. Events which do not receive library approval w ill be canceled or altered to meet
      library requirements.

      LIM 11"ATIONS: Access to the facil ity shall be limited to the specific areas designated in the permit
      including restrooms, auditorium and cafeteria. Nothing shall in1pede access to the library building. The
      following may only be done in designated areas: (1) food preparation; (2) food and drink consumption;
      and (3) parking.

      RES PONS IB ILITIES OF THE APPLICANT: (1) The sponsoring organization is responsible for the
      entire clean-up operation, including the removal of trash from the premises inunediately following the
      event. Library dumpsters may not be used. (2) 111e sponsoring organization is responsible for any
      drunage to the library by event participants, contractors, ru1d caterers. TI1e library must be returned to its
      original conditi on. (3) The sponsoring organization should not have anything delivered to the library
      unl ess a representative of the orgru1ization is at the library to accept the delivery. Library staff do not sign
      for or in any other way assume responsibility for property belonging to the applicant, the caterer, or MY
      other individual or organization involved in the event. (4) Organizations using the library facilities,
      caterers, and other contractors hired by such organizations, must follow the instmctions from library staff
      regarding schedules for delivery ru1d set-up.

      TI1e library reserves the right to withdraw approva l of any use of a library building up to 30 days before
      the date(s) of the event. If, in any way, the pennittee or any of his or her representati ves fails to comply
      with the above conditions, the program ma y be cancelled 1md the sponsoring organization may be held
      responsible for any and all costs to the Presidential library.

      ASSUM PTION OF RISK TO PERM11TEE PROPERTY : Pennittee assumes the risk of any loss or


      NA110NAJ... ARCUJ\Il:S ANO RECORDS AOMINTSTR.ATION     Pa~e   1 of4                    NA Forno   16011 (02·11)




                                                    Page 16
                                 National Archives and Records Administration
                                                                                                    OIG Audit Report No. 14-04





                                                                                                          OMB Corurol No. 309~ ·0024
                                                                                                           Expiration date: 04130/2014



damage to its property or the property of an y person or entity authorized by it to be on the Library
premises. The Library, and its officers, agents, and employees shall not be responsible or liable for any
loss of: or damage to, property while on the premises, regardless of how the loss or damage is sustained.

INDEMNIFICATION AND HOLD HARMLESS: Pennittee agrees to conduct its activities upon the
premises so as not to endanger any person thereon; and fmther agrees to indemnify, defend, and hold
hannless the Library and the United States against any and all claims, costs or expenses, or loss, injury, or
damage to any persons or property, regardless of how the loss or damage is caused, arising out of the
activities conducted by Pennittee, its contractors, subcontractors, agents, members, or guests, including
but not limited to claims of employees of Pe1mittee, or Pennittee's contractors, subcontractors, or guests.

FORCE MAJEURE: Neither Party will have any liability to the other Party for any delay or failure to
perform, in whole or in part, or for an y cancellation in connection with performance of any obligations
hereunder, if such failure or cancellation is due to any cause beyond its reasonable control, including, but
not limited to, acts of God, war, riots, civil disturbances, fires, floods, strikes, terrorist acts or credible
threat of same, lock-outs, labor disputes, failures in public suppl y of uti lities or any other causes beyond
the control of the Parties, whether similar or dissimilar to the foregoing.

ASSIGNMENT OF INTERESTS; ENTIRE1Y: Neither Party may assign its rights nor delegate its
duties. 1nese conditions of use constitutes the entire understanding ofthe Parties with respect to the
matters addressed herein, and it supersedes and replaces an y prior or contemporaneous documents,
correspondence, conversations, agreements, and other written or oral understandings. Additional
agreements may govem food and beverage vendors related to the Pennittee's event.

Revocation : NARA may revoke this License at any time by giving written notice.

Gm'cnlin g Law and Certifications: Each of the individuals signing this Pennit Application certifies
that he/she has legal authority to bind hisn1er Party to these Condit ions of Use. ll1ese Conditions of Use
will be govemed by and in accordance with the laws of the United States (without regard to conf1icts of
laws).

Alllhir/(!en of !he Nalional Archives Presidenlial Librarie.s and Museums are handicapped accqssible. However, organizalions
requiring special accessfor the mobility impaired are encouraged to notify the libraries in advance of their cn'ents.




NA"IlON A t.- ARCHlY£$ ANl) RECOJU)S A.OM UW;tl\AT ION   Page 2 of4                                  NAFonniQOI I (02- 11)




                                                     Page 17 

                                  National Archives and Records Administration
                                                                                                   OIG Audit Report No. 14-04





                                                                                                         OMB Control No. 3095-0024
                                                                                                          Expiration date: 0<1130/2014


              APPLICATION FOR PERMISSION TO SERVE ALCOHOLIC BEVERAGES

The Pennittee agrees to comply with aU state and local laws and ordinances in effect in the location of the planned
event governing the seiVing or use of alcoholic beverages. The Petmittee further agrees not to seiVe or allow the
seiVing of alcoholic beverages to anyone under the legal drinking age established in the location of the planned
evettt, or to serve or allow the set-ving of alcoholic beverages to anyone intox icated or displaying signs of
intoxicati on.

1be Permittee sh;lll indemnify and save harmless the United States, its agents and employees against any and all
loss, damage, claim, or liability whatsoever, due to personal injury or death, or damage to property of others
directly or indirectly due to the negligence of the Pennittee, or any other act or omission of the Permittee, including
failure to comply with any tenns, conditions, or obligations imposed on the Pennittee by the Permit to use th e space
or by approval of thi~ Application for Permission to Serve Alcoholic Beverages.




Applicant Signature                                                              Date


The request of _ _ _-:-:--::-::--------- to seiVe alcohol at the _ _-:-:---::-:::---:c-~:-.----
                              Name of Organization                                            Name ofPresidential Library

on ----.,::--::-:::------ is approved.
          Date oflivent



The sponsoring organization m ust agree to indetnnify the Government against all liability. The organ ization must
also agree to have a Library staff member present during the event.




Sif,'Ilature of Library Director or Deputy Director                              Date




Concurrence (ifapplicable)                                                        Date



PRIVACY ACT STATEMENT
Collection of th is information is authorized by 44 U.S.C. 2108 and 2112. Disclosure of the information is voluntary; however,
we will be unable to respond to your request if you do not furnish your name and address and the minimum required
information about your event. The information is used by NARA employees to actions taken on requests, schedules events, and
provide status infommtion conceming approved events.

PAPERWORK REDUCTION ACI' PUBLIC BURDEN STATEMENT
You are not required to prov ide the in formation requested on a form that is subject to the Paperwork Reduction Act unless the
form displays a valid OlvCB control number. Public reporting burden for this collection of information is estimated at 20
minutes per respon.~e. Send comments regarding the burden statement or any other aspect of the collection of information,
includ ing suggest ions for reducing thi s burden to the National Archives and Records Adm inistration (Nl'IP), 8601 Adelphi Rd.,
Rm 4400, College Park. N.!D 20740-6001. DO NOT SEND CO!v.O'LETED FORMS TO THIS ADDRESS



NA·frONAJ.; ARCHJV€S ANI) R£COJU)S AOMIN1Sf R;\·t iON   Page3 of4                                   NA Fonn 16011 (02-1 1)




                                                     Page 18 

                                  National Archives and Records Administration
                                                                                                            OIG Audit Report No. 14-04





 APPLICATION AND PERMIT FOR USE OFSPACE IN PRESIDENTIAL LIBRARIES AND GROUNDS
 INSTRUCfiONS: Twe or print in ink all items and sign. Also sign the • Application for Permission to Serve Alcoholic Beverages" fonn if you
 plan to serve alcohoL Please submit with this application a copy, sample, or description of any material or item proposed for distribution or
 display. Any special services for Ute disabled mLLSl be provided by Ute sponsor. (All Presidential Libraries are handicapped accessible.) See
 Paperwork Reduction Act Public Burden Statement on the reverse.

                                                                PART I - APPLICATION

 I. Name of applicant:                                                              Complete mailing addres.~ :


 Telephone number:
 E-Mail addres.~:
 2. Name of person/organization ~-ponsoring. promoting, or                          Note: To hold a room reservation, a SO% depo~t Is requlre1~
 conducting the proposed activity (if ditferentfrom Name of                         wUhout which the bold will be deleted from the calendar after
 applicant):                                                                        two weeks. A ny remaining balances are due on or before the
                                                                                    day ofthe event.
                                                                                    Note: If a caterer is used, the c-.dcrcr must contact the facility
 Telephone nwnber:                                                                  wUbin 24 hours of the event to finalize set up needs.
 E-Mail address:
 3. Name(s) of person(s) who will have supervision of and/or                        Will there be a catered meal? Yes D             No D
 responsibility for the proposed activity (ifdifferentfrom Name of
 applicant):
                                                                                    Is the caterer on the approved li st? Yes D           No D


 Telephone number:
 E-Mail addres.~:
 4. Description of proposed activity                                                5. Special services required for this event
                                                                                    (audiovisual catering, etc.):




 6. Proposed area(s) to be used at the Library:


 7. Proposed dates and hours during which activity is to be carried out:                             8. Approximate number o f attendees:

 DATE(S)                             TIME - From:                       To:
 I agree to foUow tlte Condition;~ of Use attached to this permit and certifY that I have the legal autltority to bind any entity I may represent. I agree
 to inderrulif:Y and save harmless Ute United States, its agents, and its employees against any and aU Joss, damage, claim, or liability whatsoever, due
 to personal irytuy or death, or damage to property of others, directly or indirectly due to the negligence of the user of the privilege granted by this
 agreement, or any other act or omission of user, including fai lure to comply with tlte obligations of this agreement.
 Signature of Applicant                                                                     Date Signed
                                                                    J.'ARTU - PE RMIT
                                                            (To be completed by NARA only)
 Subject to !he attached reb'Ulations (36 CFR Pru11280) and conditions, use of lhe                                                   is permitted for Ote
 date, time, and activity described above.
 Signatureff itle                                                                  Date Signed




NATIONAL AAC'KI'Vl>S ANO R.EcOR.OS AOMINISTRATION              Page 4 of4                                           NA Fomol6011 (Q2. JI)




                                                   Page 19 

                                National Archives and Records Administration
